             January 8, 2004

             MEMORANDUM
             TO:            PPC/SPP, David E. Eckerson

             FROM:          IG/A/PA, Nathan S. Lokos / s /

             SUBJECT:       Follow-up of Recommendations Included in the Audit of USAID-
                            Funded Activities in Nonpresence Countries, Audit Report No. 9-
                            000-99-005-P, dated February 26, 1999
                            (Report No. 9-000-04-001-S)

             This memorandum is our report on a follow-up of prior audit report
             recommendations included in the subject report. Although this memorandum is not
             an audit report, it does include a suggestion for your consideration. I appreciate the
             cooperation and courtesy extended to my staff during this follow-up assignment.


Background   USAID’s traditional management model is an in-country mission, with resident
             U.S. and foreign national employees and personal services contractors filling a
             variety of program and administrative positions.          However, USAID is
             increasingly funding new or continuing activities in countries where it does not
             maintain resident U.S. direct hire employees (nonpresence countries). Activities
             in these nonpresence countries support a variety of developmental, humanitarian,
             and/or foreign policy objectives.

             The USAID Office of Inspector General performed an audit of USAID-Funded
             Activities in Nonpresence Countries (Report No. 9-000-99-005, dated February
             26, 1999) to determine whether USAID was able to identify and report on its
             activities in nonpresence countries. The audit concluded that USAID was unable
             to quickly or accurately identify the location, cost, or other basic data about
             nonpresence country activities. According to USAID’s Consolidated Audit
             Tracking System, management decisions were reached and final actions
             completed for the two recommendations in the audit report.

             The first recommendation was for USAID’s Bureau for Policy and Program
             Coordination (PPC) to consolidate and supplement its existing guidance on


                                                                                                 1
                  management issues related to nonpresence programming; and ensure inclusion of
                  appropriate guidance into USAID’s Automated Directives System (ADS). The
                  second recommendation was for PPC to collaborate with the Bureau for
                  Management/Office of Budget, and develop procedures that will result in the
                  periodic collection of basic information on activities in nonpresence countries and
                  ensure that the resulting information is readily available to USAID managers.


Discussion        USAID management has taken action addressing the recommendations and problem
                  areas identified in the February 1999 audit report.1 However, the official
                  coordinating USAID’s nonpresence country database has indicated that she cannot
                  determine whether all activities in nonpresence countries are being entered in the
                  database system.

                  Improved Policies and Procedures
                  For Collecting and Providing Information

                  USAID’s Bureau for Policy and Program Coordination (PPC) has initiated several
                  efforts to ensure that needed information on nonpresence country activities is
                  collected and made readily available. Consequently, recommendations made in the
                  prior audit report have been implemented.

                  •     A General Notice on Nonpresence Programming Procedures (last revised
                        September 21, 2000) was issued. This notice required that USAID cease use of
                        any and all prior guidance (in whole or in part) as listed in Attachment 1 of the
                        General Notice. This was done to eliminate prior guidance that was sometimes
                        contradictory and unclear.

                  •     USAID issued guidance on its reporting requirements of activities not managed
                        in country (ANMIC) through ADS 203.3.9.

                  •     USAID contracted for the development of an ANMIC database on its internal
                        web site. The web page includes instructions on how to submit and update data
                        on nonpresence country activities and search the database.

                  As a result of this and other efforts, problem areas discussed in the prior audit report
                  have been resolved. The problem areas as listed in the prior report and actions taken
                  to correct them are detailed in the appendix to this memorandum.



 Conclusion   •   Based on the follow-up results, we conclude that USAID has undertaken several
                  management actions that have implemented the recommendations and resolved the
                  problem areas identified in the December 1999 audit report. However, as stated by
                  1
                      See Appendix on page 4.

                                                                                                        2
the ANMIC database coordinator, the Agency cannot be certain that all activities in
nonpresence countries are being accounted for in its database system. In addition,
representatives at the General Council’s Office stated that the activity information
sheets (AISs) submitted for clearance were at times improperly completed and/or
lacked information, which required additional follow-up. In fact, sometimes the
AISs had to be redone. The USAID contractor managing the ANMIC database also
mentioned that between 2 to 3 percent of all AISs need to be returned to USAID
because they lack clearances or use an outdated form.

We believe that training of USAID activity managers can help ensure that all
appropriate activities are included in the ANMIC database and that AISs are
properly completed. We determined that training concerning the recording of
activities not managed in country was provided to activity managers in the first half
of calendar year 2000. However, due to other priorities in PPC, the level of
subsequent training has diminished and has only been provided through the PAL
(planning, achieving, and learning) course and on an intermittent basis with
individuals. Unfortunately, high staff turn-over in the very bureaus that need to
comply with this policy necessitates regular training in order to maintain compliance
with Agency policy. We suggest that PPC help ensure that activity managers are
aware of their responsibilities to accurately and fully report on activities not
managed in country by continuing its current training efforts and its policy of issuing
notices. Moreover, we suggest that these efforts be supplemented by expanded
training of Agency staff.

Although we did not request written management comments on this report, we did
discuss its findings and conclusions with the Bureau for Policy and Program
Coordination (PPC) management. PPC agreed with this report and its suggestion.




                                                                                     3
                                                                                          Appendix

                          PRIOR PROBLEMS AND ACTIONS TAKEN


                  Prior Problem                                    Action Taken

Need to coordinate and formalize policies.         ADS 203.3.9 codified USAID’s nonpresence
                                                   country internal reporting requirements.
Need to address bureau concerns about              Activity managers are now submitting country
country data for regional activities.              data for regional activities. However, there is
                                                   no verification of the completeness of that
                                                   data.
Need a system to collect and update data on        USAID’s internal web site now includes an
nonpresence country activities.                    ANMIC2 database and instructions on how to
                                                   submit and update data on nonpresence
                                                   country activities and search the database.
Country-specific information is needed for         Access to the ANMIC data is available to all
USAID managers.                                    USAID employees via USAID’s internal web
                                                   site.
Information is needed to prepare USAID             The ANMIC database contains financial
budget presentations.                              information for each activity.
Information is needed to comply with anti-         Activity managers are now required to obtain
drug trafficking regulations.                      clearance from the General Council’s Office
                                                   prior to submitting the activity information
                                                   sheets to the ANMIC database.
Information is needed to comply with               Activity managers are now required to obtain
legislative restrictions.                          clearance from the General Council’s Office
                                                   prior to submitting the activity information
                                                   sheets to the ANMIC database.
Information is needed for Department of State      Access to the ANMIC database is available to
Performance Plans.                                 all USAID employees via USAID’s internal
                                                   web site. Consequently, USAID Missions can
                                                   more readily participate in a U.S. Embassy’s
                                                   Mission Performance Plan.




          2
              Activities not managed in country.


                                                                                                     4
